CERTIFICATE OF SERVICE
No. 20-1426
EPIC SYSTEMS CORPORATION,
Petitioner,
v.
TATA CONSULTANCY SERVICES LIMITED and TATA
AMERICA INTERNATIONAL CORP. D/B/A TCS AMERICA,
Respondents.
I, Carter G. Phillips, do hereby certify that, on this eleventh day of June,
2021, I caused one copy and an electronic copy of the Brief in Opposition in the
foregoing case to be served by Federal Express and by email, on the following:
MICHAEL T. BRODY
Jenner & Block LLP
353 N. Clark Street
Chicago, IL 60654
(312) 923-2711
MBrody@jenner.com
Counsel for Petitioner Epic Systems
Corporation
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

